Supreme Court, U.S.
FILED

JUL 0 9 2021
No.

OFFICE OF THE CLERK

/ 9-/0/ 7V I

IN THE
SUPREME COURT OF THE UNITED STATES

Jovan Harris
(Your Name)

— PETITIONER

vs.
Untied States of America

— RESPONDENTS)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE__tl«_S_.—COURT OF APPEALS E^R--T-H-E--E-IGH-T-H--CJ-RCUTT_____
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Jovan Harr-i s &Tfi?RQ-05'Q
(Your Name)

U.S. Penitentiary/P.O. Box 1000
(Address)

Kansas City, KS 66048
(City, State, Zip Code)
N/A
(Phone Number*)]

QUESTION(S) PRESENTED
1.) WHETHER, FOR PURPOSES OF TITLE 21 U.S.C. §841(A)(1) AND
(B)(1)(C)'S ENHANCED PENALTY "IF DEATH RESULTS" FROM THE USE
OF A SUBSTANCE, REQUIRES PROOF THAT THE PETITIONER WAS THE
PROXIMATE CAUSE OF THAT DEATH?

2.) WHETHER THE COURT BELOW MISAPPLIED THIS COURT'S HOLDING
IN BURRAGE V. UNITED STATES, 571 U.S. 204 (2014), WHEN IT
AFFIRMED PETITIONER'S CONVICTION, WHICH WAS BASED ON THE
STANDARD OF MORE-LIKELY-THAN-NOT THE VICTIM OVERDOSED ON
PETITIONER'S DRUGS?

LIST OF PARTIES

C4 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE....
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A : Decision of the US Court of Appeals
APPENDIX B : Decision of the Federal Trial Court
APPENDIX C ; Decision of the US Court of Appeals Denying Rehearing
APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Alleyne V. United States, 570 U.S. 99, 115 (2013)
Apprendi V. New Jersey, 530 U.S. 466, 490 (2000)
Burrage V. United States, 571 U.S. 204 (2004)
Furguson V. Moore-McCormac Lines, Inc., 352 U.S. 521, 527 (1957)
Robinson V. Shell Oil Co., 519 U.S. 337, 340 (1997)
Smith Vo United States, 508 U.S. 223, 246 (1993)

STATUTES AND RULES
21 U.S.C. §841(a)(1)
£

21 U.S.C. §841(b)(1)(c)

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
I

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
M For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix ft*__to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

f

JURISDICTION
M For cases from federal courts:
The date on which the United States Court of Appeals decided my case
Uu.lC| CLC),
was
[ ] No petition for rehearing was timely filed in my case.
M A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________ _______
and a copy of the
order denying rehearing appears at Appendix G
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______ _
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix ______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______ :_______________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

FIFTH AMENDMENT TO THE UNTIED STATES CONSTITUTION
No person shall be held to answer for capital, or otherwise
infamous crime, unless on a presentation or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or
in the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to
be put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of law; nor
shall private property be taken for public use, without just
compensation.
21 U.S.C. §841 PROHIBITED ACTS
(a) Unlawful acts. Except as authorized by this title, it shall
be unlawful for any person knowingly or intentionally(1) to manufacture, distribute, or dispense, or possess with
intent to manufacture, distribute, or dispense, a controlled
substance; or
(2) to create, distribute, or possess with intent to distribute .
or dispense, a counterfeit substance.
21 U.S.C. §841(b)
(b) Penalties. Except as otherwise provided in section 409, 418,
or 420 [21 USCS §849, 859, 860, Or 861], any person who violates
subsection (a) of this section shall be sentenced as follows;

21 U.S.C. §841(b)(1)(c)
In the case of a controlled substance, containing 5 grams or
O

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED (CONT.)
more of heroin, such person shall be sentenced to a term of
imprisonment of not more than 20 years and if death or serious
bodily injury results from the use of such substance shall be
sentenced to a term of imprisonment of not less than twenty
years or more than life.

4.

STATEMENT OF THE CASE
Jovan Harris ("Harris"), was arrested on November 16, 2016,
on a seven count indictment alleging: Count One- conspiracy to
possess with the intent to distribute, and distribution of a
controlled substance resulting in death, in violation of 21
U.S.C* §841(a)(1) and (b)(1)(c); Count Two- distribution of a
controlled substance resulting in death, in violation of 21
U.S.C. §841(a)(l) and (b)(1)(c); Counts Three thru Fivedistribution of a controlled substance resulting in serious
bodily injury, in violation of 21 U.S.C. §841(a)(l) and (B)(1)(c);
and Counts Six and Seven distribution of a controlled substance,
in violation of 21 U.S.C. §841(a)(l).
On November 29, 2016, Harris pleaded not guilty, and
proceeded to trial.
On May 14, 2018, the jury convicted Harris on Counts One,
Two, Three, Five, Six, and Seven. He was acquitted of Count Four.
On December 18, 2018 the Court sentenced Harris to 300 months
on Counts 1, 2, 3, and 5, and 240 months for each of Counts
6 and 7. The sentences were ran concurrently for a total of 300
months.
At trial the evidence showed that Jordan Larry ("JWL") over­
dosed on heroin and died, on September 1, 2015. What the evidence
didn't show was from whom this heroin came from.
Detective Christopher Martin worked for the Moorhead,
Minnesota Police Dept, crimes and drug task force. (Tr. 297-98)
He was part of the investigation into Jovan Harris' ("Harris")
case. (Tr. 298)
(SEE CONTINUATION PAGES)

5.

STATEMENT OF THE CASE (CONT.)
He was the lead officer on the overdose of JWL. (Tr. 350).
On September 1, 2015, Martin was on his way to work and
responded to a call at 706 22nd Ave •

r

S., in Moorhead, involving

a heroin overdose. When Martin arrived at the scene, the victim,
JWL, had died from a substance, which later proved to be heroin
and fentanyl. (Tr. 301, 349, 630-31)
J.W.L's cell phone was seized. (Tr. 312). The investigation
later obtained call and text message history related to this
phone from Verizon. (Tr. 314).
Detective Martin testified that J.W.L Phone had numerous
-.other calls and texts from many individuals Martin admitted he
did not investigate. (Tr. 369-370).
Detective Martin admitted he only investigated 18 hours
before J.W.L's death, between the hours of 4 and 7 o'clock. (Tr.
353-54)
Detective Martin testified that he only assumed J.W.L obtained
the heroin 18 hours before his death. And that J.W.L could have
purchased the heroin any time after getting out of jail a week
prior, to the day of his death. (Tr. 353-54)
The phone history connected J.W.L to Alexis Centers, with whom
Martin spoke to on September 2, 2015. (Tr. 319)
Centers told Martin that she knew J.W.L. She let Martin look
at her phone. Martin observed and photographed text messages
between Centers and J.W.L. on August 31, 2015. (Tr. 320). These
text messages never referenced Harris. (Tr. 362). Martin testified
that Centers was with J.W.L. at the South Moorhead Dairy Queen at
6:60 pm, August 31, 13-18 hours before J.W.L.'s death. (Tr. 321-22)

6.

STATEMENT OF THE CASE (CONT.)
Martin also spoke with Zach Speiker, who was also with J.W.L.
at the same time and place. (Tr. 322). J.W.L •

9

Centers, and

Speiker were all at the Dairy Queen together at around 6:33 to
6:40 pm on August 31. (Tr. 422-24). Harris was not at the Dairy
Queen. (Tr.426).
Detective Martin testified, that he could not verify that he,
in fact* was speaking with Zach Speiker. Detective Martin never
sat down with the person on the phone to interview or ID them.
(Tr. 395) Martin testified that based on that conversation, he
believed Stamart Liquor mart was the location where J.W.L picked
up heroin August 31st, 2015. (Tr. 323)
Martin obtained video surveillance footage from Stamart. (Tr.
327-28). The footage shows a Chrysler 300 past by a red Chevy
S10 Pick-up at 4:46. A blue Ford Taurus does pull into the lot
and starts traveling southbound. (Tr. 331) Martin believed
J.W.L was meeting somebody inside this vehicle. (Tr. 333) Martin
testified that he could not see or make out J.W.L in the Blue
Ford Taurus. Martin also testified he could not identify that
J.W.L was in the Taurus, based on the license plate or any other
information. (Tr. 362) Martin could not see anyone in the vehicle.
(Tr. 364)
Though Martin assumed J.W.L was meeting someone in the Chysler,
he testified that the Red Chevy S10 pulled from in front of the
Liquor Mart doors, to within six to ten feet of the Blue Taurus,
into one of the parking spots a few spots away from the Ford.
(Tr. 364-65) Martin testified that the cars are out of view of
the camera and can't tell if anyone approached the Taurus.

7.

STATEMENT OF THE CASE (CONT.)
it's his supposition drugs were exchanged. (Tr. 365)
Speiker told Martin that J.W.L. was in the Taurus at Stamart.
(Tr. 399). However, by the time of trial, Speiker had died, so he
did not testify. (Tr. 341).
Martin's investigation into J.W.L.'s death turned to Harris
only when law enforcement agents began to receive a series of
anonymous calls from a female, which were made between September
7 and September 15, 2015. (Tr. 335).
Harris had been arrested in July 2015 and booked into the Cass
County Jail. (Tr. 336) His booking sheet was obtained, which
showed that he listed his phone number as 414-334-9671. (Tr. 340,
405) .
Detective Martin testified he didn't have evidence on who the
.

,*

phone was registered to and could not show that the defendant

,

Jovan Harris is associated or registered to the phone. (Tr. 337)
Detective Martin could not determine where the physical ]
location of the phone, who had control over the phone, or who was
using this phone. (Tr. 338)
In addition, Harris at that time was driving a silver Chrysler
300 with Wisconsin plates. (Tr. 403) Martin testified that the
Chrysler 300 Plate in the video is unreadable. (Tr. 366)
Martin testified he didn't know the true time frame as to how
long J.W.L. Maintained the heroin before he used it and overdosed.
And didn't have evidence of J.W.L. and Jovan Harris exchanging
money for drugs. (Tr. 370) But the Detectives did have proof that
J.W.L. was buying heroin from Cory Heinze and Jacob Wetch, August
5th and August 27th, 2015. Just a few days before J.W.L.'s death
September 1st, 2015. (Tr. 1236-37) Detective Heidbreder testified
8,

STATEMENT OF THE CASE (CONT.)
that during investigation Jovan Harris was never identified as
being a source or connected in any fashion. (Tr. 1236) J.W.L,
Jacob Wetch, and Cory Heinze were being investigated and charged
for a Conspiracy to deliver heroin that defendant Harris was not
involved or connected to. (Tr. 1236) Jacob Wetch was J.W.L.'s
source to heroin on both occasions before his death. (Tr. 1236)
The C.I. was buying heroin from J.W.L. who had to wait on his
source, Wetch. (Tr. 1236) On one of the occasions, Wetch took
J.W.L. and the C.I. to Heinze, and on another occasion, Wetch sold
to J.W.L. and the C.I. (Tr.1236-39) One of these heroin deals
happened at the Stamart. (Tr. 1238) In the same area Detective
Martin believes J.W.L. picked up heroin the day before he died.
(Tr. 323) Detective Heidbreder testified that the Stamart parking
lot, which the Blue Taurus was observed in, he believed contained
■j

J.W.L. is in close Proximity to Jacob Wetch"s house. (Tr.. 1252)
Jacob Wetch's house was right next to the Stamart Liquor
Mart where Detective Martin believe J.W.L. last purchased heroin.
(Tr. 1252) And Jacob Wetch was the last person who was seen,
toy Detectives, selling J.W.L.. heroin. (Tr. 1252) Zach Speaker
died 'before trial and could not testify to anything,. (Tr. 341)
Including if he was in fact the person in the phone interview.
Martin at that point had the phone numbers for J.W.L •

9

Speiker,

Centers, and one who he believed to belong to Harris. (Tr. 342)
'With this phone information, Martin began to review the
information that he had obtained from Verizon regarding J.W.L.'s
phone information,. (Tr. 342). On August 31, J.W.L. did most of
the calling and texting out. (Tr. 345,347). He primary called

9.

STATEMENT OF THE CASE (CONT.)
and texted who he believed to be Harris. (Tr. 345,347) Most of
the texts were between 4:30 pm and 9:46 pm. (Tr. 374) This
information matched up with the video from Stamart. (Tr. .348).
Martin admitted Governments Exhibits 8A and 9A were not
official documents from the Phone Company. But documents he
made to show contact between J.W.L., Zach Speiker, and the
number Martin alleged was Harris'. (Tr. 343-44) Though Martin
testified there was many other calls and text messages, he
didn't investigate in this same time frame. (Tr. 369-370)
Martin testified that he didn't know what any of these calls or
messages were about. Ail could not show that any of the calls
were even answered. (Tf. 359) Though Martin testified that he
believed J.W.L. passed away from heroin, he obtained on August
31st, 2015 (Tr. 344) He also testified that there was ho way of
tying the heroin that was in J.W.L.'s system to the heroin that
was found in his wallet at the scene because there was no lab
analysis done on his blood work to compare with the heroin found
at the scene. Martin testified that he had no proof what heroin
killed J.W.L. and it could have been a totally different batch.
(Tr. 353), Martin testified two foil packets were located at the
scene. One, was- open next to the syringe-, on the counter J.W.L
used; in his overdose, and the other was in his wallet. Martin
admits in his: testimony that he did not have any solid
information, as to where that heroin in those foil packets came
from. (Tr. 357) Martin testified, that J.W.L.^ was a known heroin
distributor and user, and did not know how long J.W.L. actually
possessed; the: heroins he qverdosedi from. (Tr. 370)

10.

STATEMENT OF THE CASE (CONT.)
Indeed, Martin was focused on determining J.W.L.'s movements
from 3:59 pm to 7 pm, on August 31, which was 13-18 hours before
J.W.L.'s death at 8:30 the next morning. (Tr. 353). J.W.L.
furthermore, had prior experience buying and selling heroin.
(Tr. 356). In fact, J.W.L. was a known heroin user and
distributor. (Tr. 370).
During the March to July time frame, Alexis Centers was using
heroin and getting it from J.W.L. (Tr. 437). To make these deals,
Centers would usually pick J.W.L. up, they would go wherever
they had to to obtain heroin. J.W.L. would take Center's money,
meet with whomever he would meet with, and return to Center's
car. (Tr. 440). J.W.L. would meet with someone who drove a silver
Chrysler 300. (Tr. 442) This process happened pretty much every
other day, but Centers never got a good look at J.W.L.'s dealer.
(Tr. 443-44). J.W.L. never told Centers the name of his dealer.
(Tr. 444) She did say, however, that J.W.L.'s dealer Was a short
black male with dreads. (Tr. 444-45). In 2005 and at Harris'
trial, Centers could not recognize Harris, and didn't know who
J.W.L.'s dealer was.
The last time Centers went through this process with J.W.L.
was on August 31, 2015. Centers had texted J.W.L

• t

(Tr. 447) , at

the Dairy Queen at 6 or 7 pm. J.W.L. was there with another
person, a white male with dreads. (Tr. 448)
J.W.L. had the heroin on him, he told her that his dealer
was with him and they would wait on her. (Tr. 449) Once Centers
got the heroin, she parted company and used the heroin over the
next several hours. (Tr. 452). She learned about J.W.L.'s death
the next day. Law enforcement contacted her, and she showed
11.

STATEMENT OF THE CASE (CONT.)
them her cell phone, which revealed a text message indicating
that J.W.L. was with his dealer just before he and Centers met
at Dairy Queen. (Tr. 452-56),
Alexis Centers said Brandon Jacobs supplied J.W.L. (Tr. 438)
Alexis was going with J.W.L. to meet with whoever. Sometimes
inside Motel 6 or a silver Chrysler 300. (Tr. 442) Alexis didn't
specifically see who J.W.L, was meeting at Motel 6. (Tr. 443)
Alexis met with J.W.L.'s source. She gave a description of a
short black male with dreads. (Tr. 445) Alexis testified in
her 2015 statement, she identified J.W.L.'s source as being a
really tiny short black guy. Alexis estimated the source's
height to be five foot four because he was shorter than her.
Alexis said she is five-five. Alexis testified the reason she
knows his height is because she saw him when he approached
her car. (Tr. 474) Alexis testified she seen the source
between the months of June and August on more than one occasion.
(Tr. 475) Alexis says she was able to see the source every time
J.W.L. picked up heroin. When she was asked how she saw the
source? She said, "Just through the vehicle's windows." When she
was asked, "Would you be able to see him through the window?"
Alexis said, "yes". (Tr. 479-480) Alexis said she seen the
source through the window four or five times. (Tr. 480) Alexis
was shown a line up containing Jovan Harris. Alexis testified
that she was not able to pick out J.W.L.'s source. (Tr. 482-83)
Alexis admits in her testimony J.W.L. could have had many other
suppliers as well. (Tr. 483) Alexis says she was buying heroin
from Jacob Wetch from 2013-2014. (Tr. 459) Alexis said she

12-

STATEMENT OF THE CASE (CONT.)
knew Wetch sold heroin in 2013, but didn't know what he was
doing in 2015, and was not aware Jacob Wetch sold J.W.L. heroin
within days of his death. (Tr. 473) Alexis admits that she
didn't know what J.W.L was doing and it's possible he was using
heroin from many different sources. (Tr. 472)
Derek Petterson had multiple felony convictions. (Tr. 511-513)
Petterson testified he has a pretty good relationship going
with Detective Heidbreder. Petterson testified, in a interview
with Detectives, he was asked about a drug dealer he knew that
was in the drug trade. Petterson identified a number of different
people including Jacob Wetch, but never brought up Pooh or
Jovan Harris in any fashion. He also testified, a photograph
was shown to him, and the detective wanted information related
",

to the person. The detective, in fact, identified the person
as Jovan Harris, and told Petterson that Harris was a dealer.
Petterson also testified that he didn't know who Jovan Harris
was or the person in the picture was. Petterson again testified,
that the Detective told him this was Jovan Harris in the picture
and that Harris is a drug dealer, but only used Harris'
government name. (Tr. 541-42) Petterson testified that he started
asking people about Harris and they told him nick name and where
Harris lived. (Tr. 543) Petterson said he asked friends for
information on the person he was being subpoenaed for because
he could potentially be a witness. (Tr. 543) He admitted he
didn't have a lot of information, having to do with Harris or
Pooh, before talking to the two friends. (Tr. 543-44) In the
2016 interview, Petterson identified Harris' picture as little
G., but admitted in testimony little G. was a different dealer.
13.

STATEMENT OF THE CASE (CONT.)
Petterson identified the same picture as Ty or T-y's. But
testified that Ty was another dealer in the area. Petterson
remembers telling officers that he met Pooh through BJ and not
Wetch. (Tr545—46) Petterson says he remembers faces but didn't
recognize Harris. He also admitted law enforcement gave him
the info, about Harris being a drug dealer and that Harris was
the person on the picture. (Tr. 547) Petterson testified* that
the reason he called Jacob Wetch is because Wetch was a heroin
dealer, that Wetch always buys from a guy who lives only a
half a block away from Petterson. Petterson says this was Pooh's
v

house. (Tr. 518) Petterson says he's done 20 to 30 transactions
with Harris or Pooh through Jacob Wetch. Never hand to hand.
(Tr. 548) Jacob Wetch was asked about drug deals during the time
he was getting heroin from Pete or James Smith, was he giving it
to Petterson? Wetch said that he tried but Petterson robbed Wetch.
(Tr. 701) Wetch said he called Pete, A.K.A. James Smith, and
met with Petterson and Petterson took the heroin. (Tr. 702)
Petterson believes Pooh lives in the four-plex behind Hernbacher's
because that's where Wetch would walk in and get the heroin.
(Tr. 550) James Smith, not Harris, was the person that lived in
the four-plex behind Hornbacher's. (Tr. 574) James testified,
he was giving the heroin to Wetch and Wetch sold it for him.
(Tr. 606) Wetch testified that Petterson lied about his whole
testimony. And that he never was his middle man. But Petterson
did rob him. (Tr. 728-29)
James Dion Smith has a criminal record for drug—related
matters. Law enforcement agents spoke with him in August 2016

14.

STATEMENT OF THE CASE (CONT.)
about his drug activity. (Tr. 571) James admits he was involved
in drugs. (Tr. 569) In 2016, Smith lived on 8th street North, by
Hornbacher's, in a four-plex house. (Tr. 574) Smith admitted
he met Jacob Wetch through a friend, when Jacob Wetch sold him
weed. At this point Smith wasn't selling drugs. He didn't know
anything about heroin. Smith says Wetch showed him heroin and
asked him to sell it, a few different times. Smith testified
that at this time he never even knew a guy by the name of Jovan
Harris, (Tr. 576-77) Smith initially testified he met Harris
through Brazil when Smith was selling them weed. (Tr. 579)
Later Smith admitted he actually only sold weed to Brazil and
only assumed Harris was in the car. (Tr. 599-600) Smith testified
Wetch got him into the heroin trade. (Tr. 593) Smith testified
that he remembered the interview with Dan Heidbreder. Detective
Heidbreder identified he was targeting Jovan Harris. (Tr.589)
Smith remembered saying: "I don't know him at all." (Tr. 590)
Smith testified, that Heidbreder put down a picture of Jovan
Harris and said he wanted to target that individual. (Tr. 590)
Smith said Heidbreder told Smith: "We're going to tell you
what we have, and informed him Jovan Harris is a major drug
dealer in the area." Smith told him that he had no involvement
with Harris. (Tr. 5.91) Smith testified, he never did heroin
deals directly with Harris. (Tr. 596) Smith said, "he only met
[sic] a phone call," then after that, "a woman." He never did
any direct activities with Pooh as far as heroin, it was always
females. (Tr. 597) Smith testified, in his initial interview
he said he didn't know Jovan Harris and didn't know a person

15.

STATEMENT OF THE CASE (CONT.)
known as Pooh. (Tr. 598) Smith said there was no face-to-face
meetings with Harris only over the phone, and he can't say
that it was actually him who was talking over the phone.
(Tr. 600-01) Smith never seen Harris with any of the females.
(Tr. 603) Smith only gave the heroin to Wetch and Wetch would
seH it to Tyler. (Tr. 586) Smith broke the heroin down and
Wetch sold it, and brought the money back. (Tr. 604) Girls
from Minneapolis would bring heroin to Smith and he would
package it and give it to Wetch in foils. (Tr. 604-606) Smith
says he knew Wetch was selling to Tyler and Morgan. (Tr. 607)
Smith pointed the defendant out as being Jovan Harris. But
admitted the only time he met Harris was when he sold Harris
weed at Hornbachers. (Tr. 608)•Though he admits he actually sold
Brazil the weed. (Tr. 600) The only time he seen Harris was when
law enforcement showed him his picture. Smith said that he can't
point at him and say that's the person that was bringing the
girls to deliver the heroin. He said, "I can't say if that was
actually him." (Tr. 608)
Jacob Wetch has convictions for conspiracy to deliver heroin
and paraphernalia. (Tr. 647) In the summer of 2015, he was
selling heroin to keep his addiction going. (Tr. 661-62) Jacob
Wetch testified that Cory Heinze was his Co-Conspirator in one
of his Conspiracy cases and he was conspiring to sell heroin
with Cory Heinze. (Tr. 712) Wetch testified he had other
connections and talked with law enforcement a few times after
his heroin conspiracy was filed. (Tr. 704) Wetch testified he
was selling so much heroin his middle man sent Wetch to the

16.

STATEMENT OF THE CASE (CONT.)
source. When Wetch was asked what was the guy's name. Wetch
said, "I don't really know a specific name because I was getting
it from a lot of different people. (Tr. 664) Jacob Wetch was
charged in 2016 for his and Heinze's Conspiracy. (Tr. 648) But
their conduct happened in August of 2015. (Tr. 648) This
coincides with Detective Heidbreder's testimony. When he stated
Heinze sold Jordan Larry or "J.W.L." heroin August 5th, 2015.and
Wetch sold J.W.L. heroin August 27th, 2015. Just days before
J.W.L.'s death. Heidbreder also stated that Harris wasn't ever
identified as being a source or connected in any fashion.
«
v- •

(Tr. 1236-38) Wetch testified, that Heinze and his Conspiracy
to distribute heroin ran from August of 2015 to January of 2016.
(Tr. 714-15) Wetch testified that his Attorney told him his
Proffer Agreement stated that if Wetch Cooperated against
Pooh, Wetch could not be charged federally. He would be allowed
to plead to his two counts in state court. (Tr. 716) Wetch admits
that he was told to target Jovan Harris in his Proffer Agreement,
And that it depended on how Cooperative he was and how much
information he provided against Jovan Harris, whether he was
going to be federally indicted or left in state court.
(Tr. 717-18) Wetch said he Cooperated with them for leniency on
his case. (Tr. 719) Proffer signed April 14, of 2016. (Tr. 724-25)
But Wetch admits he couldn't show any calls, texts, or numbers
for Harris at the time. (Tr.725) Wetch said he was getting heroin
from Harris 10 times a day when he got tips from washing cars,
it was riot every day. (Tr. 734) Pooh lived out of town. (Tr. 677)
Wetch said he was selling heroin to 50 people but he was

17.

STATEMENT OF THE CASE (CONT.)
talking about his conspiracy with Heinze. CTrT 7T2’=7T4T~Wetch
said he did buy 3.5 grams but never said from who or if it was
from his conspiracy or all of the different people he claimed
he was buying from. (Tr. 664) The prosecutor asked Wetch about
amounts and that he didn't mean from Pooh but from his general
practice. (Tr. 664)
Paul Ramirez was convicted of terrorizing in August 2015,
and was later caught making a meth deal. (Tr. 759,762). Law
enforcement agents offered to let him cooperate against someone
else. (Tr. 762). During this time, Ramirez was using all types
$

of drugs, including heroin. (Tr. 763) He told agents that he
was friends with T.P.M •

9

that T.P.M. had introduced him to Pooh,

and that he knew where to get heroin. (Tr. 766,768). When
Ramirez was introduced to Pooh, which was a couple of days
- -V

before Ramirez' arrest for meth sales, (Tr. 769), Ramirez got
a sample of heroin from Pooh. (Tr. 77.0). Ramirez got the heroin
off of the bathroom counter in T.P.M.'s apartment. (Tr. 770-771).
Ramirez agreed with agents to do a controlled buy in March
2016. (Tr. 775). Ramirez was fit with a recording device,
(Tr. 777), and was to go to T.P.M.'s apartment to buy heroin.
(Tr. 778).
On March 21, 2016, Ramirez made the first of two controlled
buys. Ramirez knocked on T.P.M.'s apartment door. T.P.M.
answered and let Ramirez in. (Tr. 783). M.S.M. was there, as
were Pooh and Pooh'S friend. (Tr. 784). It appeared that Pooh
was staying at the apartment. (Tr. 788) Ramirez testified that
he didn't see Pooh with any heroin during the first alleged
controlled buy. (Tr. 851) Ramirez didn't remember where the buy
18.

STATEMENT OF THE CASE (CONT.)
money went and didn't know who he handed it to. (Tr. 838) Ramirez
said he had personal belongings in the house where he did the
alleged buys. He had a bedroom in this house, also toiletries
and clothes. (Tr. 870-71) Ramirez admits he lived there.
(Tr. 870) Ramirez admits Tyler McIntosh sold him heroin twice
a week. (Tr. 878-79) Ramirez never told law enforcement he
lived in the house they were sending him into. (Tr. 890) Ramirez
said he asked Tyler McIntosh to "hook him up" and not Pooh.
(Tr. 898) Ramirez said he went to McIntosh instead of Pooh to
negotiate quantity and price for the buy. All his contact was
£■

with McIntosh. (Tr. 90.3) Ramirez says he assumed McIntosh got
drugs from Pooh though he could not hear any .communication
between them in the living room. He could not see in the living
room because he stayed in the kitchen. And couldn't see who
was in the living room. (Tr. 906-907)
Ramirez says he didn't know if Pooh was going in the bathroom
to prepare drugs, he just assumed that. (Tr. 909) No one told
Ramirez to go get the drugs in the bathroom, he just decided
to. (Tr. 911) Ramirez admits that at no point did he communicate
to Pooh about -drugs or money, or anything of that -nature.
(Tr-. 913 ) Ramirez admits that he told law enforcement that he
negotiated with Pooh for the first buy. But didn't know why he
lied to them. (Tr. 917) Ramirez says .he did not ever approach
Pooh to talk to him about the desire to purchase heroin on the
second buy. (Tr. 923-24) Ramirez admits !he could have and had
every opportunity to hide heroin in the house without anyone
knowing. (Tr. 937). 'He didn't see who got the second buy money.
(Tr . 9.38;). Ramirez admits he -already had the baggie in his
19.

STATEMENT OF THE CASE (CONT.)
pocket that he told police Pooh gave him. (Tr. 928-929)
Morgan Masters ("M.S.M."), has a criminal drug record.
(Tr. 951). She started using heroin in January 2015 with. Paul
Ramirez. (Tr. 953-54). In early spring 2015, M.S.M. met Brazil,
who offered to give her a ride home from downtown Fargo.
(Tr. 957-58). In the car were M.S.M •! 9 Brazil, M.S.M.'s friend
Willie, and Pooh. M.S.M. knew Pooh as "Jovan". This was the first
time M.S.M. met Jovan. (Tr;. 958). Tyler McIntosh is Masters:'
boyfriend. (Tr/. 954) Masters overdosed August 27th (Tr. 963)
Masters said she did meth and probably lots of other things.
(Tr. 965) Masters was positive for T.H.C

• 9‘

opiates, and

amphetamines.. (Tr. 969) Masters, testified that if she was to be
honest she didn^t know if she was buying, heroin from "P", A.K.A.
James Smith, before or after she overdosed. But if that was the
case »• The heroin her and Tyler McIntosh overdosed from could have
been from "P". (Tr. 999) Masters said she did not necessarily
know where she went to go get the heroin: she overdosed on.
(Tr. 1000) When she; was asked: "Do you remember who gave it to
you?" Masters said: "Oh, my goodness, well, I'm pretty sure it
was probably from Pooh." She. was asked: "Pretty sure, but it could
have been "P" is that right?" Masters said: "Yeah, but I don't
think so." (Tr. 1000) She really didn't know when, she was buying
from "P" because everything; is really a blur. (Tr. 974) COuld
have been before or after her O.D. Masters; still don't know
what drugs she overdosed from. (Tr. 1001). Masters can't remember
how she arranged to get the drugs she overdosed on. (Tr. 1002)
But she says she. always called Pooh because he was the only

20.

STATEMENT OF THE CASE (CONT.)
person they ever got from. (Tr. 1002) But this is not true
because Jacob Wetch admits in his testimony he was selling
Tyler and Morgan heroin in the summer of 2015. (Tr. 666) James
SMith said his heroin was being sold to Masters and McIntosh.
(Tr. 608) -Masters even says the "C.I." Ramirez would sale her
heroin. (Tr. 986-92) Masters even had to ash McIntosh where
the heroin came from she overdosed from. (Tr. 994). Masters
says McIntosh overdosed after they went to the same place to
pick it up., but Masters admitted she was really just assuming
on where and how they got the heroin and really didn't know*
(Tr.. 10053
Tyler P. McIntosh -{ "T.P.M. " ) has been convicted of drug
felonies. (Tr. 1029j. He started using heroin in 2013, and
between 2013 and 2017,, was a regular heroin user. (Tr. 1035,
1038-39),,. T.P.M. started injecting heroin in 2015, at which
point "Jovan" was supplying heroin to T.P.M. At that time,
T.P.M. knew Jovan as "Pooh". (Tr. 1041). T.P.M. first met Pooh
in spring of 2015. (Tr. 1042-43). McIntosh testified that he
did not recall where the heroin came from that he injected
the morning he overdosed. (Tr. 1053-54) McIntosh was asked if
he knew where Masters' heroin she overdosed on came from?
McIntosh said: "Pooh". But when he was asked if the heroin
came directly from Pooh or someone he directed them to?
McIntosh admitted that he didn't really know. (Tr. 1055)
McIntosh has a conviction of a class A delivery of heroin charge
in 2017. (Tr. 1030) McIntosh was asked if he at some point
seen Harris hand off heroin to Miss Masters? McIntosh said:
"I don't recall that." (Tr. 1046)
21 o

STATEMENT OF THE CASE (CONT.)
After T.P.M.'s overdose, Pooh left the area for an unusually
long time. Pooh directed T.P.M. to contact "P" for heroin.
(Tr. 1055-56). T.P.M. got heroin from "P" a "hundred times. A
lot." (Tr. 1057). "P" was James Smith. (Tr. 1078).
On May 14, 2018, the jury found Harris not guilty on count
4, distribution of a controlled substance resulting in serious
bodily injury. The jury found Harris guilty Of all the remaining
counts. (DCD 97).
On December 18, 2018, Harris' sentencing hearing was held.
(DCD 140). The government recommended a sentence of 360 months,
id. at 2, Harris recommended a sentence of 240 months, which
was the statutory mandatory minimum. (DCD 119, p.10) The
District Court determined that Harris' total offense level under
the Federal sentencing Guidelines was 42, and his Criminal
History Category was III. This yielded a Guidelines range of
360 months to life.
The Court imposed a sentence of 300 months for each of Counts
1, 2, 3, and 5, and 240 months for each of Counts 6, and 7. The
Court imposed the sentences to run concurrently, for a total
sentence of 300 months imprisonment.
Harris filed a timely notice of appeal.
On or about July 20, 2020, the U*S. Court of Appeals, for the
Eighth Circuit Affirmed Harris' conviction and sentence.

22.

REASONS FOR GRANTING THE PETITION
1» Jovan Harris, the Petitioner ("Harris"), was convicted and
sentenced under Title 21 U.S.C. §841's enhanced penalty for
distribution of a controlled substance resulting in either
death or serious bodily injury.
However, in the instant case there was no proof that the
heroin which the three people who overdosed came from Harris.
In two of the overdoses, the victims had several other drugs
in their system.
At best the evidence showed that Harris was involved in drug
dealing in the area of, and around the time of the overdoses.
The evidence also showed numerous other persons were also
dealing heroin to the victims during the same time frames.
Further, the victims themselves were all involved in selling
heroin to each other at the time of the overdoses.
Two of the people who overdosed, Morgan Masters and Tyler
McIntosh, admitted they had used other drugs at the time of
their overdoses. Moreover, neither of them could say that the
heroin they used came from Harris.
Nobody testified that the heroin that Jordan Larry dies from
came from Harris. Instead, the trial court allowed, and the
Appellate Court affirmed Harris' conviction based on the
circumstantial evidence that he was involved in drug dealing
in the area, and during the time frames involved. There was no
proof that Larry got the heroin from Harris.
In other words, Harris' conviction was upheld because it was
"likely" or "possible" that the heroin the three people overdosed
on, came from Harris.
(See continuation pages)
23.

REASONS FOR GRANTING THE PETITION (CONT.)
WHETHER 21 U.S.C. §841 REQUIRES PROOF OF PROXIMATE CAUSE
Title 21 U.S.C. §841 provides a penalty enhancement for
distribution of a controlled substance "if death or serious
bodily injury results from the use of such substance. See
21 U.S.C. §841(a)(1) and (b)(1)(c). The enhancement is
significant. When the enhancement applies, the sentence shall
be "not less than twenty years {nor] more than life." 21 U.S.C.
§841(b)(1)(c). The issue in this case is whether the "death • * •
results from the use of such substance" language requires proof
of proximate cause..
This Court reviews issues of statutory construction 'de novo1,
as they are pure questions of law. In construing statures,
the Court begins with the plain language, and, if it is
"unambiguous", then the "inquiry must cease." Robinson V. Shell
5

Oil Co • -f 519 U.S. 337, 34D (1997);. If the stature is ambiguous,
the Court will turn to other tools of statutory construction.
As demonstrated below, section 841's "death results" language
is ambiguous, and those other tools favor requiring proof of
proximate cause.
The language of 18 U.S.C. §841 (b) (1) (c) is ambiguous,.
Burrage V-. United States, f571 U.S. 204,, 210-11 ( 2014) , this
Court ^addressed the statute and language at issue in this case,
concluding it requires proof of actual cause but declining to
answer whether it requires proof of proximate cause. This Court
began its analysis by noting that the "law has long considered
causation a hybrid concept, consisting Of two constituent parts:
actual cause and legal cause • '• • • (Often called the proximate
cause). "ID-, at 210—11 (quoting The New Shorter Oxford English
Dictionary -2570 (1993)). After rejecting the government's various
'••V J

REASONS FOR GRANTING THE PETITION (CONT.)
arguments, this Court concluded that "[e]specially in the .
interpretation of a criminal statute subject to the rule of
lenity, we cannot give the text a.meaning that is different
from its ordinary, accepted meaning, and that disfavors the
defendant." ID. at 216 (citation omitted). Justices Ginsburg
and Sotomayor did not agree that the statute was unambiguous
(in terms of actual cause) but did "agree that

in the

interpretation of a criminal statute subject to the rule of
lenity,' where there is room for debate, and should not choose
the construction 'that disfavors the defendant.
t

f II

ID. at 219

(Ginsburg, J, concurring)(quoting Burrage's majority opinion).
This Court's grant of certiorari in Burrage, suggests the
language of §841(b)(1)(c) is ambiguous. Although Burrage does
not answer the question, it does provide helpful guidance* In
Addition to the majority and concurrence's reliance on the
rule of lenity with this specific statute's language in Burrage,
the Court also granted certiorari on the question of whether
that language' requires proof of proximate cause. Id. at 208,
210 ("Whether the defendant may be convicted under the 'death
results' provision • • • without separately instructing the jury
that it. must decide whether the victim's death by drug overdose
was a foreseeable result of the defendant's drug-trafficking
offense). In granting certiorari, this Court, at the very least,
suggested that the statute is not as straightforward as it
seems.
The; "rule of four" is this Court's "practice on granting
certiorari on the vote of four, justices". Ferguson V. MooreMcCormack Lines, Inc., 352 u.S. 521, 527 (1957)(Frankfurter, J •
25.

f

REASONS FOR GRANTING THE PETITION (CONT.)
dissenting)(internal quotations omitted). Justice Frankfurter
explained that "[t]he rule of.four is not a command of Congress.
It is a working rule devised by the Court as a practical mode of
determining that a case is deserving of review, the theory
being that if four Justices find that a legal question of general
importance is raised that is ample proof that the question has
such importance." Id. at 529 (internal quotations omitted.)
While there is no Circuit Court split on this issue, maybe the
four Justices believed this issue is "a United States Court of
Appeals... ha[d] so far departed from the accepted and usual
“course of judicial proceedings. • « as to call for an exercise
of this Court's supervisory power." S.Ct. R. 10(a) Maybe, four
Justices believed this issue is "an important question of federal
law that has not been, but should be, settled by [the Supreme]
.Court." Id. No matter the answer, the grant of certiorari
certainly suggests that four justices had some questions about
whether proof of proximate cause is required under §841(b)(l)(c)!s
"death results" enhancement.
Section 841(b)(1)(c)'a enhanced penalty applies, not when the
prohibited conduct, i.e •

9

the distribution of the controlled

substance, results in death or serious injury, but when "death
or injury results from the use of such substance." §841(b)(1)(c)
(emphasis added).
In the case 'sub judice', there was no evidence adduced that
the heroin Larry overdosed, and died from came from Harris.
Instead the government relied on the fact the witnesses claimed
that Harris, as well as themselves, sold heroin in the same
geographical area, and during the -same time frames, as when
Larry overdosed.
26.

REASONS FOR GRANTING THE PETITION (CONT.)
Further, Larry himself was involved in a drug conspiracy
to distribute heroin in the same area, and time frame leading
up to his overdose. (Tr.

) The government admitted that

Harris was not involved in that conspiracy whatsoever. Therefore,
there was no proof that Larry's death was the result from "the
use of" heroin obtained from Harris. The District Court did not
require it, and the Court of Appeals upheld the District Court's
holding that as long as the circumstantial evidence showed it
was "possible", or "likeljy" that Harris provided the heroin,
it was sufficient to convict him.
The District Court should have had to prove that Harris was
the proximate cause of Larry's death, that is that the heroin
that Larry overdosed on had a direct link to Harris. At best
the evidence showed that the heroin he O.D.'d on could have
came from any of several sources.
Finally, the rule of lenity controls here. The rule of lenity
holds that "Where there is ambiguity in a criminal statute,
doubts are resolved in favor of the defendant." Smith V. United
States, 508 U.S. 223, 246 (1993). Here the statute is ambiguous
(at minimum), and therefore the Court should choose the
construction that is more favorable to Harris, requiring proof
of proximate cause to apply the "death results" enhancement.
That conclusion is only bolstered by both the majority and
dissent's reference to the rule of lenity in Burrage. 571 U.S.
at 216 ("Especially in the interpretation of a criminal statute
subject to the rule of lenity, we cannot give the text a meaning
that is different from its ordinary, accepted meaning, and that
disfavors the defendant." Ids at 219 (internal citation omitted)
27.

REASONS FOR GRANTING THE PETITION (CONT.)
(Gingburg, J •

9

concurring) ( "I do agree that '~in the irrte r p reta~tiron-

of a criminal statute subject to the rule of lenity,

where

there is room for debate, one should not choose the construction
'that disfavors the defendant.

I II

(quoting the majority). In sum,

the rule of lenity should apply in this case and requires an
interpretation that favors Harris.
Therefore, this Court should grant certiorari on this issue,
in Light of Burrage, and resolve the issue of whether the trial
Court must prove the defendant is the proximate cause of a
person's death, to qualify for §841(b)(1)(c)'s "death results"
enhancement.

2. Both the trial Court, and the Appellate Court ignored this
Court's holding in Burrage that the evidence must show that
"but-for" Harris

actions, the victim Larry would not have

died, and the two other victims would not have overdosed. Instead,
they allowed Harris' conviction to stand though there was no
direct proof that any of the victims who overdosed, did so on
heroin obtained from Harris. As set forth more fully in the
Statement of Case, the evidence showed at best, that Harris
sold heroin in the same geographical area, and during the same
time frames, as other people were selling heroin, to the same
users of heroin, three of whom overdosed. The two victims who
overdosed and lived, Morgan Masters("Masters"), and Tyler
McIntosh ("McIntosh"), testified that they could not say for
sure the heroin they overdosed on came from Harris. Moreover,
both had several other drugs in their blood at the time of the
overdose.
28.

REASONS FOR GRANTING THE PETITION (CONT.)
Because the "death results" enhancement increased the minimum
and maximum sentences to which Harris was exposed, it is an
element that must be submitted to the jury and found beyond a
reasonable doubt. See Alleyne V. United States, 570 U.S. 99,
115-116 (2013); Apprendi V. United States, 530 U.S. 466, 490
(2000). Thus the crime charged in Counts One, Two, Three, and
Five of Harris

indictment has two principal elements: (i)

Knowing or intentional distribution of heroin, §841(a)(l), and
(ii) death resulting from the use of the drug, §841(b)(1)(c).
This Court in Burrage held that "The law has long considered
causation a hybrid concept, consisting of two constituent parts:
actual cause and legal cause." Id. at 210.(guoting H. Hart and
A. Honor, Causation in the Law 104 (1959)). When a crime
requires "not merely conduct but also a specified result of
conduct," a defendant generally may not be convicted unless
his conduct is "both (1) the actual cause, and (2) the 'legal
cause (often called the

proximate cause') of the result."

1 W. Lafave, Substantive Criminal Law, §6.4(a), pp. 464-466
(2nd ed. 2003). Those two questions on which this Court granted
certiorari in Burrage. In Burrage this Court only found it
necessary to decide the first; "Whether the use of heroin was the
actual cause of [the victim's] death in the sense that §841(b)
(1)(c) requires." Id. at 210.
In Burrage the Court used the analogy "Where A shoots B, who
is hit and dies, we can sat| that A [actually] caused B's
death, since but for A's conduct B would not have died." Id. at
211. (quoting LaFave).

29.

REASONS FOR GRANTING THE PETITION (CONT.)
In this case, using tne analogy above-7—i-t—wa-s—l-tke—A-,—B-,—C-,.
D and E, were all shooting guns into the air. One of the bullets
came down, struck F, and he died. The bullet was not recovered,
so no one knows whose bullet actually struck F and killed him,
but because A fired into the air, there is circumstantial
evidence he is guilty.
In Burrage, the Court held that a trial Court must prove that
"but-for" a defendant's action the victim would not have died.
In this case that proof was not offered, nor adduced at trial.
In complete abrogation of this Court's holding in Burrage,
the trial allowed Harris to be convicted based on the
circumstantial evidence that he was selling heroin in the area,
and during the time frames of the overdoses. The Appellate
Court upheld his convictions, based on the same circumstantial
evidence.
As pointed out in the Statement of Case, the evidence equally
pointed to Larry obtaining heroin from another source.
As f6r Master' and McIntosh's overdoses, neither could d
definitively say the heroin they used came from Harris. Masters
admitted using several other drugs at the time of the overdose.
In Burrage, the government argued "[w]hen the conduct of two
or more actors is so related to an event that their combined
conduct, viewed as a whole, is a but-for cause of the event,
and application of the but-for rule to them individually would
absolve all of them, the conduct of each is a cause in fact
of the event." This Court rejected that argument, as too
permissive an interpretation of §841(b)(l).
The Burrage Court held "[w]here use of the drug distributed
30.

REASONS FOR GRANTING THE PETITION (CONT.)
by the defendant i~s not an—i-nd-epende-n-tl-V- sufficient cause of the
victim's death or serious bodily injury, a defendant cannot be
liable under the penalty enhancement provision of 21 U.S.C. §841
(b)(1)(c) unless such use is a but-for cause of the death or
[serious bodily] injury." Id. at 218.
In this case there was evidence that pointed equally to Larry,
Masters, and McIntosh, obtaining the heroin from other sources,
as there was that they obtained it from Harris. The government
knew this, but once again wanting to punish someone simply chose
Harris as their scape-goat.
The opinion of the Eighth Circuit is therefore, in direct
contravention of this Court's holding in Burrage, and Harris
requests this Court to Grant- Vacate- and Remand this case in
Light of it's holding in Burrage.

31.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully s

fitted,

/
//

Date:

32.

